BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for Petitioners in
20-1758, RD Legal Funding, LLC, RD Legal Funding
Partners, LP, RD Legal Finance, LLC and Roni
Dersovitz v. Consumer Financial Protection Bureau and
the People of the State of New York, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via e-mail and Next Day service to the
following parties listed below, this 1st day of
September, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara. underwood@ag.ny.gov
Counsel for Respondent People of the State of New York,
ex rel. James

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Anne M. Voigts
Counsel of Record
Michael D. Roth
David K. Willingham
Jeffrey M. Hammer
King & Spalding LLP
633 West Fifth Street
Suite 1600
Los Angeles, CA 90071
(213) 443-4355
avoigts@kslaw.com
mroth@kslaw.com
dwillingham@kslaw.com
jhammer@kslaw.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ p"t"0 ~ I , r) t.h) I

cJriv 1, /J~ ,

Notary Public
[seal]

